DECLARATION OF SUSAN HARGROVE

I, Susan Hargrove, declare that I dropped of the following items for United States
Postal Service, First Class delivery on October 13, 2020 before 6^00 PM in Los
Angeles, California.
I have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served by United States Postal Service, First Class delivery on
October 13, 2020 before 6^00 PM in Los Angeles, California.
The parties served are listed in the Proof of Service as an attachment to the Proof of
Service.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on: October 13, 2020

/s/Susan Hargrove

Susan Hargrove, Declarant (Signature)

APP 009 Item 3a - POS TRIAL tpURT NO: Los Angeles Superior Court No. BC63597Q

B283424

3
2
3

PROOF OF SEEVICE LIST

4

5
6
7

8
9

Jonathan B. Cole, Esq.
Michael McCarthy, Esq.
Mark Schaeffer; Esq,
NEMECEK & COLE
16255 Ventura Blvd.
.Suite 300
Encino, CA 91436

For Defendants, Martin D. Singer,
LAVELY & SINGER, a Professional
Corporation and Andrew Brettler

Kaufman Doiowich & Voluck LLP

Phone (310)755-6511
Fax (310)525-9720
For Kempinski Defendants

(818) 788 9500
(818)501 0328 Fax.

id Andrew J, Waxier & Courtney Curtis-Ives
ii
12
13
14

15
16
17
18

19

1 i 755 Wilshire Boulevard, Suitel400
Los Angeles, CA 90025
Email: awaxler@kdvlaw.com, ccurtis@kdvlaw.com
Gaglidne, Dolan & Kaplan
Robert Dolan & Amy Cooper
11377 West Olympic Blvd, 10,h Floor
Los Angeles, CA 90064
Email: acoopcr@gagHonedolan.com

Phone (310) 231-1600
Fax (310) 231-1610
For Defendants Aiazm Bilty QQC Hollywood

Hon. David Sotelo
Stanley Mosk Court Hot&fe Department 40;
111 N, Hill Street
Los Angeles, CA 900:12

20

21
22

California Court of Appeal, S econd District
300 South Spring Street, North Tower Suite 2217
Los Angeles* CA 90013

23
24
25
26
27
28
- i -

POS LIST

